No. 20-249

 

 

IN THE

Supreme Court of the United States

DouG OMMEN, IN HIS CAPACITY AS
LIQUIDATOR OF COOPORTUNITY HEALTH, INC., and
DAN WATKINS, IN HIS CAPACITY AS SPECIAL
DEPUTY LIQUIDATOR OF COOPORTUNITY HEALTH, INC.,

Petitioners,
v.

MILLIMAN, INC., ET AL.,
Respondents.

On Petition for Writ of Certiorari to the
Supreme Court of Iowa

BRIEF IN OPPOSITION TO
PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,567 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 28, 2020.

Hb

Colin Casey Hegan
Wilson-Epes Printing Co., Inc.

   
